 

 

 

 

No.

IN THE SUPREME COURT OF THE UNITED STATES

BERNIER JACKSON,
Petitioner,
V.
STATE OF FLORIDA,

Respondent.

On Petition for a Writ of Certiorari
to the Fifth District Court of Appeal
For the State of Florida

CERTIFICATE OF SERVICE

I HEREBY CERTIFY, pursuant to Supreme Court Rule 29.5(b), that on this
28th day of May, 2021, copies of the Petition for Writ of Certiorari and the Motion for
Leave to Proceed In Forma Pauperis were sent by United States mail to the Office of
the Attorney General, 444 Seabreeze Blvd, Suite 500, Daytona Beach, FL 32118.

All parties required to be served have been served.

 

Dane K. Chase, Esquire
Florida Bar Number: 0076448
